n

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Amicus Curiae National Hispanic Christian
Leadership Conference in Support of Petitioner in 21144, Seattle's Union Gospel Mission v. Matthew S.
Woods, was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 2nd day of September, 2021:
John J. Bursch
Alliance Defending Freedom
440 First Street, NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org

Counsel for Petitioner
Jennifer Denise Diskin
QLaw Foundation of Washington
101 Yesler Way #300
Seattle, WA 98104
(206) 483-2725
denise@qlawfoundation.org

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite l 02
Cincinnati, Ohio 45249

www.beckergallagher.com

I Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Timothy J. Newton
Counsel of Record
Murphy & Grantland, P.A.
Post Office Box 6648
Columbia, South Carolina 29260
(803) 782-4100
tnewton@murphygrantland.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 2, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

S~p ~ t}l,f_ d ( .Jo

d1/.c..

Notary Public
[seal]

f:\ .

;J (

k,ca!j/'-

